   September 22, 2006




Financial Management
Selected Controls Over the Military
Personnel, Army Appropriation
(D-2006-112)




                   Department of Defense
                  Office of Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DFAS-IN               Defense Finance and Accounting Service Indianapolis
FMR                   Financial Management Regulation
MPA                   Military Personnel, Army
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                      September 22,2006
MEMORANDUM 1:OIl A111)1'1'01< GFNFI<AI., L)El1AlUMENT OF THE ARMY
                 l)llll-'C"1'Oll. I>FFENSE FINANCE AND A(.'('OUNTINC;
                     SI(RV1CF INI)IANAIIOLIS OIIEI<,\TIONS
SUBJECT: Report on Selected Controls over the Militaw Personnel, Army
         Appropriation (Report No. D-2006-112)

       We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report. The
Assistant Secreta~yof the Army (Financial Management and Comptroller) comments on
Recommendations A.1.b. and A. 1.d. were partially responsive.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Assistant Secretaw of the Army (Financial Management and
Comptroller) provide additional comments on Recommendation A. 1.b. and reconsider
her comments on Recommendation A. 1.d. by October 23,2006.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the /Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the cou~tesiesextended to the staff. Questions should be directed
to Carmelo G. Ventimiglia at (317) 510-4801 (DSN 699-4801) ext. 275 or Mr. Robert J.
Ringwald at (3 17) 510-4801 @SN 699-4801) ext. 272. See Appendix C for the report
distribution. The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                        ~ a i ~ r a n e t tCPA
                                                            o,
                                      Assi    t Inspector General
                                      Defense Financial Auditing
                                                Service
                Department of Defense Office of Inspector General
Report No. D-2006-112                                                 September 22, 2006
   (Project No. D2005-D000FI-0268.000)

                 Selected Controls over the Military Personnel,
                             Army Appropriation

                                  Executive Summary

Who Should Read This Report and Why? Department of the Army and Defense
Finance and Accounting Service (DFAS) officials who manage and account for the
Military Personnel, Army (MPA) appropriation should read this report. The report
discusses control weaknesses that led to a potential Antideficiency Act violation in the
FY 2005 MPA appropriation.

Background. This is the first of two audit reports evaluating the processes and controls
over managing and accounting for the MPA appropriation. We will discuss other aspects
of the audit objective in a separate report focusing on controls over permanent change of
station travel advances and suspense accounts. The MPA appropriation is a centrally
managed, single-year appropriation that funds soldiers’ pay and allowances and other
related personnel costs. For FY 2005, direct obligation authority totaled $41.8 billion.
Within the Office of the Assistant Secretary of the Army (Financial Management and
Comptroller), the Army Budget Office, Military Pay Division is responsible for
formulating and justifying the MPA appropriation budget. The Army Budget Office, in
coordination with the fund holder, the Office of the Deputy Chief of Staff for Personnel,
centrally manages the execution of the entire appropriation by developing obligation
plans and monitoring and analyzing execution performance against the plans. The
Military Pay Accounting Division at DFAS Indianapolis (DFAS-IN) is responsible for
the accounting and financial reporting of the appropriation.

Results. The Army did not establish effective processes and controls for managing the
MPA appropriation. As a result, as of January 31, 2006, the Army had obligated about
$617.1 million and disbursed about $431.7 million in excess of the $41.8 billion
approved funding for the FY 2005 MPA appropriation. As such, the Army may have
incurred an Antideficiency Act violation reportable under subsection 1517(b), title 31,
United States Code. On December 19, 2005, the Assistant Secretary of the Army
(Financial Management and Comptroller) approved a plan to strengthen management
controls over the MPA appropriation. In addition to the planned actions, the Army
Budget Office, in coordination with the Office of the Deputy Chief of Staff for Personnel,
should use the Program Budget Accounting System - Funds Distribution to create and
issue funding targets; include non-payroll costs in the costing model methodology;
document the methodology for estimating obligations and the decisions made to align
resources with available funds; prepare accounting adjustments transferring obligations
and disbursements to the correct fiscal year; and report a potential Antideficiency Act
violation in the FY 2005 MPA appropriation. DFAS-IN should coordinate and
implement system changes to receive and record obligations based on the supply
requisition date (finding A).
The Army Budget Office and DFAS-IN lacked effective internal controls to ensure the
accuracy and reliability of accounting data. Specifically, the Army Budget Office and
DFAS-IN did not establish a formal process to identify and track transactions and
adequately document and support accounting adjustments, and did not conduct thorough
joint reviews of recorded obligations and disbursements. The absence of effective
internal controls resulted in managers questioning the reliability and accuracy of reported
financial data and contributed to the potential Antideficiency Act violation. The Army
Budget Office and DFAS-IN should develop and implement procedures for preparing and
maintaining documentation for accounting adjustments, tracking and controlling
accounting transactions, and conducting periodic joint reviews of MPA appropriation
obligations and disbursements. In addition, DFAS-IN should dedicate adequate staff to
ensure thorough periodic obligation reviews. The Managers’ Internal Control Program
self-evaluations should also be updated and, if the conditions continue to exist, report a
material weakness to the next higher level of management (finding B). See the Findings
section for the detailed recommendations.

Management Comments and Audit Response. The Assistant Secretary of the Army
(Financial Management and Comptroller) responded for the Director, Army Budget. The
Assistant Secretary concurred with recommendations to use the Program Budget
Accounting System - Funds Distribution, include non-payroll costs in the model for
estimating obligations, and document results of budget execution reviews. The Assistant
Secretary also agreed to modify the Army Food Management Information System to
create an obligation document and implement procedures for preparing and maintaining
documentation supporting accounting adjustments. In addition, the Assistant Secretary
agreed to coordinate with DFAS-IN to establish a formal process to identify and track
accounting transactions, implement procedures for conducting periodic joint reviews of
obligations, and update self-evaluations of internal controls. The Assistant Secretary did
not respond to the recommendation to thoroughly document the costing model
methodology and retain documentation to support estimated obligations.

The Assistant Secretary nonconcurred with recommendations to prepare accounting
adjustments to transfer obligations and disbursements from FYs 2004 and 2006 to
FY 2005, and report a potential Antideficiency Act violation. The Assistant Secretary
stated that the Army would postpone a decision on making the accounting adjustments
and reporting a potential Antideficiency Act violation pending completion of reviews by
the U.S. Army Audit Agency. We believe the action taken by the Assistant Secretary
meets the intent of the recommendations. However, we do not agree with the Assistant
Secretary’s position for not processing an accounting adjustment transferring
$113.9 million of subsistence interfund bills from FY 2004 to FY 2005. The business
practice of obligating current year funds when DFAS-IN receives a disbursement for
which a corresponding obligation has not been recorded in the accounting system is
contrary to the DoD Financial Management Regulation, volume 3, chapter 8. We request
that the Assistant Secretary reconsider her position and require the Director, Army
Budget to prepare accounting adjustments to transfer MPA appropriation obligations and
disbursements to the correct fiscal year. We request that the Assistant Secretary provide
additional comments on the final report by October 23, 2006.

The Director, DFAS-IN Operations concurred with all recommendations. See the
Findings section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.


                                            ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objective                                                                 1

Review of Internal Controls                                               2


Findings
     A. Management of Military Personnel, Army Appropriation Funds       3
     B. Accounting and Financial Reporting for the Military Personnel,
         Army Appropriation                                              15

Appendixes
     A. Scope and Methodology                                            22
     B. Prior Coverage                                                   24
     C. Report Distribution                                              26

Management Comments
     Department of the Army                                              27
     Defense Finance and Accounting Service Indianapolis                 31
Background
    The Military Personnel, Army (MPA) appropriation is a centrally managed,
    single-year appropriation that funds soldiers’ pay and allowances and other
    related personnel costs. For FY 2005, direct obligation authority totaled $41.8
    billion, including emergency supplemental authority of $11.1 billion primarily for
    support of the Global War on Terrorism and $915.7 million authorized by Title
    IX of the FY 2005 Department of Defense Appropriations Act.

    Starting in FY 2004, the MPA appropriation changed from an open allotment to a
    specific allotment with accounting and financial reporting performed by the
    Military Pay Accounting Division located at the Defense Finance and Accounting
    Service (DFAS) Indianapolis (DFAS-IN). Only the uniform and clothing account
    and the subsistence budget activities continued to operate as a special open
    allotment. Under a specific allotment, DFAS-IN records obligations and
    disbursements as individual transactions and reports the transactions by specific
    fiscal stations. Under an open allotment, DFAS-IN records and reports
    obligations and disbursements meeting established criteria at the summary
    account level using a general fiscal station number.

    Within the Office of the Assistant Secretary of the Army (Financial Management
    and Comptroller), Army Budget Office (Army Budget), the Military Pay Division
    is responsible for formulating and justifying the MPA appropriation budget.
    Army Budget, in coordination with the fund holder, the Army Office of the
    Deputy Chief of Staff for Personnel (Army G-1), centrally manages the execution
    of the entire MPA appropriation by developing obligation plans and monitoring
    and analyzing execution performance against the plans. DoD Regulation
    7000.14R, the DoD Financial Management Regulation (FMR), volume 6A,
    chapter 2, “Financial Reports, Roles, and Responsibilities,” assigns the DoD
    Components responsibility for establishing appropriate internal controls over
    financial data provided to DFAS-IN. As such, the DoD Components are
    responsible for ensuring the accuracy, completeness, and documentary support for
    the data recorded in the finance and accounting systems and used to prepare
    financial reports.


Objective
    Our overall audit objective was to evaluate whether processes and controls were
    in place to ensure accurate and timely recording of the Army’s military pay and
    benefits cost data. We also reviewed the Managers’ Internal Control Program as
    it related to the overall objective. This is the first of two audit reports that discuss
    the processes and controls over managing and accounting for the Military
    Personnel, Army appropriation. We will address the other aspects of the audit
    objective in a subsequent report focusing on controls over permanent change of
    station travel advances and suspense accounts. See Appendix A for a discussion
    of the scope and methodology. See Appendix B for prior coverage related to the
    objective.



                                           1
Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, 1 require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls.

           We evaluated Army Budget and DFAS-IN internal controls and management’s
           self-evaluations of internal controls over the management of and accounting for
           the MPA appropriation. Specifically, we focused on the Military Pay Division
           within Army Budget and Military Pay Accounting Division within DFAS-IN.

           We identified material internal control weaknesses as defined by DoD Instruction
           5010.40 in both Army Budget and DFAS-IN. Internal controls did not ensure
           adherence to the DoD FMR policy for distributing funds, estimating and
           recording obligations, preparing and documenting adjustments, controlling and
           tracking transactions, and conducting joint reviews of obligations. Management’s
           self-evaluations performed by the Military Pay Division within Army Budget and
           the Military Pay Accounting Division within DFAS-IN did not identify or report
           these weaknesses. Recommendations A.1.b., A.1.c., A.1.f., A.2., B.1., B.2.a.,
           B.2.b., and B.3., when implemented, will correct the internal control weaknesses.
           Recommendation B.2.c. should provide for a more accurate assessment and
           reporting of internal controls. The Findings section of this report discusses the
           internal control weaknesses and the adequacy of management’s self-evaluation
           process. A copy of the report will be provided to the senior official responsible
           for management controls in Army Budget and DFAS-IN.




1
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on
    January 4, 2006.

                                                    2
            A. Management of Military Personnel,
               Army Appropriation Funds
            The Army did not effectively manage the MPA appropriation.
            Specifically, Army Budget, in coordination with the Army G-1, did not:

                    •   establish and distribute formal funding targets to program
                        managers responsible for obligating and expending MPA
                        appropriation funds,

                    •   accurately estimate and document support for obligations, and

                    •   modify budget execution plans or request additional funding
                        when forecasted funding requirements exceeded approved
                        funding.
            These conditions occurred because Army Budget did not develop formal
            processes and written procedures to manage the MPA appropriation. In
            addition, Army Budget and DFAS-IN did not comply with DoD FMR
            policy on recording obligations in the accounting period that they
            occurred. As a result, as of January 31, 2006, the Army had obligated
            about $617.1 million and disbursed about $431.7 million in excess of the
            $41.8 billion approved funding for the FY 2005 MPA appropriation. The
            Army may have violated subsection 1517, title 31, United States Code
            (31 U.S.C. 1517).


Criteria
     Roles and Responsibilities. Preparing and issuing Component financial reports
     is a joint responsibility of DFAS and the DoD Component. The DoD FMR,
     volume 6A, chapter 2, “Financial Reports, Roles, and Responsibilities,” assigns
     the DoD Component responsibility for ensuring the accuracy, completeness,
     timeliness, and documentary support for all data generated by the DoD
     Component and input into the finance and accounting systems. DFAS is
     responsible for accurate and timely recording and processing of data provided by
     the DoD Component. Both DFAS and the DoD Component are responsible for
     reviewing financial reports to assess the accuracy of the reported financial
     information and for taking corrective actions, as needed, to improve the timeliness
     and quality of the financial reports. Ultimately, however, the DoD Component is
     responsible for the accuracy and completeness of information in financial reports.

     Recording Obligations. The DoD FMR, volume 3, chapter 15, “Receipt and Use
     of Budgetary Resources - Execution Level,” states that obligations incurred are
     amounts of orders placed, contracts awarded, services received, and similar
     transactions during an accounting period that will require payment. Chapter 8,
     “Standards for Recording and Reviewing Commitments and Obligations,”
     requires that the military Services record obligations for amounts payable to
     military personnel in the month they earned it. Chapter 8 also prescribes the basis


                                          3
           for determining the amount to record and the accounting period in which
           obligations will be recorded. DoD Components are to obligate funds at the time
           they requisition items. The office that incurs an obligation is responsible for
           providing the accounting station with documentary evidence of the transaction. If
           personnel do not know the amount of an obligation at the time they record it, they
           should provide their best estimate based on a thorough analysis of the transaction
           that actually occurred.

           Antideficiency Act Requirements. Under 31 U.S.C. 1517(a), Government
           officials are prohibited from making obligations or expenditures in excess of an
           apportionment 2 or reapportionment, or in excess of the amount permitted by
           agency regulation. Section 1517(b) requires the agency head to immediately
           report violations to the President and Congress and to include all relevant facts
           and actions taken. DoD Directive 7200.1, “Administrative Control of
           Appropriations,” requires DoD Components to investigate and report on actual or
           potential violations of section 1517(a). Specific procedures for investigating and
           reporting potential violations are contained in the DoD FMR, volume 14,
           “Administrative Control of Funds and Antideficiency Act Violations.”


Funding Target Distribution
           Army G-1 did not establish and distribute formal funding targets to the Army
           program managers who were directly responsible for obligating and expending
           MPA appropriation funds. Army Budget, in coordination with Army G-1,
           developed obligation plans and monitored and analyzed execution performance
           against the plans. However, other Army organizations were directly responsible
           for executing programs funded by the MPA appropriation. For example, the U.S.
           Army Human Resources Command is the program manager for permanent change
           of station moves. The approved FY 2005 budget for permanent change of station
           moves totaled $1.2 billion. However, as of January 31, 2006, cumulative
           obligations exceeded the permanent change of station budget by $112.2 million.
           The absence of a formal process for establishing and distributing funding targets
           prevented Army G-1 from holding program managers accountable for executing
           their programs within the approved budget.


Accuracy of Estimated Obligations
           Army Budget did not adequately document the estimated obligations recorded in
           the monthly Accounting Report M-1002, “Appropriation Status by Fiscal Year,
           Program, and Sub-account.” The documentation was inadequate because Army
           Budget had not developed written procedures detailing the methodology and data
           used for estimating obligations. Prior to each month-end, DFAS-IN provided
           Army Budget with a summary of the current year-to-date obligations and

2
    An apportionment is a distribution by the Office of Management and Budget of dollar amounts available
    for obligation in an appropriation or fund account. The amounts apportioned limit the obligations and
    expenditures the fund holder may incur.

                                                     4
           disbursements. Army Budget then prepared a plan of estimated obligations using
           the data provided by DFAS-IN, prior years’ obligation and disbursement rates,
           and current year budget requirements. The estimated obligations represented the
           amount of unpaid accrued expenditures 3 at month end. However, Army Budget
           did not retain the data nor document the process for estimating the obligations.
           As a result, there was no assurance that the obligation data reported in the
           monthly Accounting Report M-1002 were reliable and accurate.

           Army Budget understated year-end FY 2005 MPA appropriation obligations.
           Rather than determining and recording total year-end obligations based on best
           estimates, Army Budget personnel obligated the $248.2 million that remained
           unobligated in the MPA appropriation as of September 30, 2005. An Army
           Budget official informed us that, at the end of FY 2005, they estimated
           obligations totaled about $510.0 million, $261.8 million more than the amount
           recorded in the September 30, 2005, Accounting Report M-1002. However,
           Army Budget personnel could not provide documentation to support the estimated
           year-end obligations. Specific costs not obligated at year-end included $102.6
           million for Service Group Life Insurance and $80.0 million for Unemployment
           Compensation. Without documentation to substantiate estimated obligations,
           Army Budget did not have a valid basis for approving the September 30, 2005,
           Accounting Report M-1002.


Budget Execution
           Army Budget and Army G-1 neither modified the budget execution plan nor
           requested additional funds based on changes in requirements. The FY 2005
           mid-year budget execution review reported that cumulative actual obligations
           equaled planned obligations. However, changes in requirements, primarily in
           projected officer and enlisted grade structures and incentives associated with the
           ongoing Global War on Terrorism, caused cumulative actual obligations to
           exceed planned obligations starting in April 2005. Table 1 displays planned and
           actual MPA appropriation obligations from April through September 2005.

                       Table 1. Comparison of Planned to Actual FY 2005
                                MPA Appropriation Obligations
                                  (Dollar amounts in billions)
                  April          May            June            July           August          September

Planned           $24.4          $28.1          $31.7           $34.6          $38.6           $41.8

Actual             24.6           28.3            31.3           35.1            39.0           41.8

Variance           (0.2)          (0.2)            0.4           (0.5)           (0.4)            0.0


3
    Unpaid accrued expenditures represent the dollar value of goods and services received but not paid. On
    the Accounting Report M-1002, unpaid accrued expenditures will equal the unpaid obligation amount.



                                                       5
           Although Army Budget and Army G-1 officials closely monitored execution of
           the MPA appropriation budget, they did not document any specific
           recommendations or actions taken to align requirements with available funds or to
           request additional funding. Army Budget officials explained that they questioned
           the reliability of the MPA appropriation obligation and disbursement data
           reported in the monthly Accounting Report M-1002 and anticipated making
           accounting adjustments to avoid exceeding the approved funding. As of
           September 30, 2005, Army Budget reported in the year-end Accounting Report
           M-1002 that it had obligated all its funding ($41.8 billion) and made
           disbursements totaling about $41.6 billion.


Accounting Adjustments
           Army Budget inappropriately made accounting adjustments that had the effect of
           increasing the obligation authority in the FY 2005 MPA appropriation. The
           recording of transactions in the wrong fiscal year occurred because Army Budget
           and DFAS-IN officials did not comply with DoD FMR policy, which requires
           obligations be recorded in the accounting period they occur.

           Interfund Bills Charged to FY 2004 Appropriation. Army Budget
           inappropriately reversed an accounting adjustment for subsistence items
           processed through the interfund billing system. 4 In April 2005, DFAS-IN
           accountants determined that $312.8 million of interfund bills from the Defense
           Logistics Agency processed between November 2004 and April 2005 erroneously
           cited FY 2004 MPA appropriation funds rather than FY 2005 MPA appropriation
           funds. The detailed list of requisition transactions supporting the interfund bills
           showed requisition dates after September 30, 2004. DFAS-IN personnel
           concluded that inaccurate correlations of Fiscal Station Numbers and DoD
           Activity Address Codes associated with the establishment of the Army’s
           Installation Management Agency caused transactions to cite the wrong fiscal
           year. Based on the information provided by DFAS-IN, Army Budget personnel
           prepared a Standard Form 1081, Voucher and Schedule of Withdrawals and
           Credits, dated May 12, 2005, transferring the obligations and disbursements from
           FY 2004 to FY 2005.

           On September 20, 2005, Army Budget prepared a Standard Form 1081 reversing
           the May 12, 2005, adjustment. The Standard Form 1081 cited apparent
           discrepancies in requisitioning dates on transactions supporting the interfund bills
           from the Defense Logistics Agency as the reason for the adjustment. However,
           Army Budget officials did not document the data analysis they performed to
           conclude that requisitions occurred in FY 2004 rather than FY 2005. In addition,
           the Standard Form 1081 indicated a need for additional research to ensure that
           disbursements posted correctly. However, Army Budget officials could not

4
    The interfund billing system is an automated billing and fund transfer process designed to replenish the
    seller’s cash reserves immediately when consumable items are delivered to the buyer. The seller’s
    accounting station submits bills to the buyer through the Defense Automated Addressing System Center.
    The seller submits both a summary bill, by appropriations charged, and a detailed list of requisition
    transactions.

                                                       6
           provide documentation or a description of the additional research performed to
           validate the accounting adjustment. In the absence of support for the adjustment
           made on September 20, 2005, Army Budget should reverse it by processing a
           Standard Form 1081 charging FY 2005 MPA appropriation funds rather than
           FY 2004 funds.

           Review of FY 2005 Appropriation Accounting Transactions. On
           November 10, 2005, DFAS-IN informed Army Budget of a potential negative
           cash balance 5 in the FY 2005 MPA appropriation. Army Budget officials, in
           coordination with DFAS-IN personnel, reviewed FY 2005 MPA appropriation
           accounting transactions valued individually at more than $1 million to determine
           whether recorded obligations and disbursements were proper and cited the correct
           fiscal year. As a result of their review, Army Budget and DFAS-IN personnel
           processed eight accounting adjustments decreasing FY 2005 obligations and
           disbursements by about $587.5 million. Processing the eight adjustments
           increased the FY 2005 MPA appropriation cash balance to $411.8 million as of
           November 30, 2005. We reviewed the eight adjustments and concluded that one
           adjustment for $108.3 million incorrectly cited FY 2006 funds rather FY 2005
           MPA appropriation funds. The joint review by Army Budget and DFAS-IN also
           identified, but did not correct, a $190.3 million payment to the Medicare Eligible
           Retiree Health Care Fund that incorrectly cited FY 2004 rather than FY 2005
           MPA appropriation funds.

                   Interfund Bills Charged to FY 2006 Appropriation. DFAS-IN
           improperly charged the FY 2006 MPA appropriation for subsistence items
           requisitioned during FY 2005. Army food service activities requisitioned
           subsistence items managed by the Defense Logistics Agency using the Army
           Food Management Information System. However, the system did not create an
           obligation transaction at the time food service activities prepared the requisition.
           As a result, DFAS-IN followed its established business practice and created the
           obligation transaction based on the date it disbursed funds to pay the bill.
           DFAS-IN used the Operational Data Store to interface information for
           entitlement, disbursing, and accounting systems. If the Operational Data Store
           did not locate a matching obligation when processing the detail list of interfund
           transactions, the system assigned a transaction code that simultaneously created
           an obligation and disbursement transaction for the accounting system citing the
           current fiscal year appropriation. This practice was contrary to DoD FMR policy
           that requires DoD Components to obligate funds at the time they requisition
           items.

           The October 2005 summary interfund bill received from the Defense Logistics
           Agency, totaling $108.3 million, charged the FY 2005 MPA appropriation.
           However, when the detail list of interfund transactions processed through the
           Operational Data Store, the system assigned a transaction code that
           simultaneously obligated and disbursed transactions within the accounting system
           citing the FY 2006 MPA appropriation. Following normal business practices,
           DFAS-IN reversed the summary bill that cited the FY 2005 appropriation and

5
    Cash balance is the difference between approved funding and total disbursements. Because the FY 2005
    MPA appropriation was fully obligated, the cash balance equaled unpaid obligations. A negative cash
    balance occurs when total disbursements exceed approved funding.



                                                     7
          charged the FY 2006 appropriation. However, the detail list of transactions
          showed that all requisition documents originated in FY 2005. In addition, using
          the same business practice, DFAS-IN processed another $5.6 million of interfund
          bills in October and December 2005 that charged FY 2006 funds rather than
          FY 2005 funds. Army Budget should prepare a Standard Form 1081, transferring
          the $113.9 million of interfund bill charges to the FY 2005 MPA appropriation.

                  Medicare Eligible Retiree Health Care Fund Costs. Army Budget
          erroneously charged $190.3 million for contributions to the Medicare Eligible
          Retiree Health Care Fund (the Fund) to the FY 2004 MPA appropriation rather
          than the FY 2005 MPA appropriation. DoD Components are to recognize costs
          for pensions and medical benefits for retirees during the years in which the
          employees are working in lieu of when the benefits are actually paid. Monthly,
          Army Budget computed payments to the Fund based on personnel end strength
          and annual contribution rates established by the Fund’s Board of Actuaries. In
          processing the October 2004 contribution, Army Budget prepared the Standard
          Form 1081 citing FY 2004 funds rather than FY 2005 funds and DFAS-IN
          processed the payment accordingly. Because of changes in their monthly
          payment process, Army Budget personnel assumed the payment was for
          September 2004 rather than for October 2004, thus directing DFAS-IN to use
          FY 2004 funds. DFAS-IN identified the error while researching prior
          adjustments involving Army contributions to the Fund and informed Army
          Budget of the error in November 2005. 6 As of May 25, 2006, Army Budget had
          not taken action to adjust accounting records.

          Summary. Army Budget and DFAS-IN improperly cited FYs 2004 and 2006
          funds rather than FY 2005 MPA appropriation funds. Processing the three
          correcting adjustments totaling $617.1 million would result in obligations and
          disbursements exceeding approved funds and a potential Antideficiency Act
          violation as of January 31, 2006, reportable under 31 U.S.C. 1517(b). The Army
          had obligated about $617.1 million in excess of the $41.8 billion in approved
          funding for the FY 2005 MPA appropriation. As of January 31, 2006, the
          projected cash deficit (disbursements in excess of approved funding) would total
          $431.7 million, after processing the $617.1 million in correcting accounting
          adjustments. See Table 2 for a description of the projected cash deficit.




6
    Adjustments recommended by DoD IG Report No. D-2006-034, “Accuracy of the Contributions to the
    Medicare-Eligible Retiree Health Care Fund,” December 7, 2005.

                                                   8
               Table 2. FY 2005 MPA Appropriation Status,
                          as of January 31, 2006
                        (Dollar amounts in millions)
        Approved Funding/Total                               $41,839.7
        Obligations

        Less: Total Disbursements                             41,654.3

        Net Cash Balance                                         185.4

        Less: Correcting Accounting                              617.1
        Adjustments
        Projected Cash Deficit                                  (431.7)


Improvements in MPA Appropriation Management
    Fund Distribution. To improve accountability and control for managing the
    execution of programs funded by the MPA appropriation, Army G-1 issued letters
    providing FY 2006 funding targets to several Army program managers. Army
    G-1 issued letters to the Chief of Staff for Logistics for subsistence requirements,
    the U.S. Army Human Resource Command for permanent change of station
    moves and enlisted incentive requirements, and the U.S. Military Academy for
    cadet pay and allowances. The funding letters directed the recipients to monitor
    actual execution against the targets to ensure that obligations and expenditures did
    not exceed funding targets. Army Budget and Army G-1 plan to issue more
    funding targets in FY 2007. The funding target letters are a positive step to place
    accountability on Army managers for executing programs within funding limits.
    However, Army Budget and Army G-1 should formalize the process by using the
    Program Budget Accounting System - Funds Distribution to create the funding
    document and distribute it to the recipient. The system should be used to prevent
    distribution of more funds than authorized to fund holders and program managers
    and to provide a documented audit trail for assigning and holding recipients
    responsible for executing programs within established funding targets.

    Estimated Obligations. Army and DFAS-IN officials developed a Plan of
    Milestone Actions to improve MPA appropriation processes and controls. The
    Plan of Milestone Actions includes interim and long-range milestones to improve
    the process for estimating monthly payroll obligations. Specifically:

           •   In December 2005, Army Budget and Army G-1 began to coordinate
               with the Deputy Assistant Secretary of the Army for Cost and
               Economics to develop a costing model for estimating obligations.

           •   In January 2006, Army Budget began to provide DFAS-IN with a
               manually generated obligation plan, estimating the current month’s
               payroll liability by the fifth workday of the month.


                                         9
          •   During the third quarter FY 2007, DFAS-IN plans to implement
              system changes for an automated process to develop payroll obligation
              estimates.

   However, the Plan of Milestone Actions did not address estimating obligations for
   non-payroll costs such as permanent change of station travel. To ensure that the
   estimates are complete, reasonable, and adequately supported, Army Budget and
   Army G-1 need to include non-payroll costs in the costing model for estimating
   obligations, thoroughly document the costing model methodology, and retain
   documentation to support recorded obligations.

   Budget Execution. In a memorandum signed on December 19, 2005, the
   Assistant Secretary of the Army (Financial Management and Comptroller)
   assigned the Director of Operations and Support, Army Budget, responsibility for
   ensuring effective implementation of the business process changes in the Plan of
   Milestone Actions within prescribed timeframes. The memorandum stated that
   the Army G-1 would continue to execute assigned responsibilities for managing
   the Army’s personnel force structure within available resources. Army Budget
   and Army G-1 are to use the monthly MPA execution reviews as a forum to
   advise the Army leadership on the status of resources and to identify requirements
   that are not affordable within current available funds. To ensure accountability
   and clear communication of program results and management decisions, Army
   Budget and Army G-1 should document data analysis and recommendations they
   make to align requirements with available resources and Army leadership
   decisions.

   Interfund Transactions. Army Budget and DFAS-IN recognized that obligating
   subsistence interfund transactions based on the date the bills process rather than
   the date of requisition did not comply with DoD FMR policy. The Army Food
   Management Information System did not create an obligation document to pass to
   the Standard Finance System, the Army’s installation accounting system, at the
   time of requisition. The Plan of Milestone Actions identified the U.S. Army
   Materiel Command’s Funds Control Module as a potential tool for passing
   obligations between the Army Food Management Information System and the
   Standard Finance System. However, in February 2006, Army Materiel Command
   personnel told us that they had no plans to modify the Fund Control Module to
   interface with the Army Food Management Information System. As an
   alternative measure, Army Budget and Army G-1 should work with the Office of
   the Deputy Chief of Staff, G-4 (Logistics) to modify the Army Food Management
   Information System to create an obligation document at the time the supply
   requisition is prepared. DFAS-IN should then implement the required system
   changes for Operational Data Store to receive obligation transactions from the
   Army Food Management Information System and to pass the transactions to the
   Standard Finance System for recording in the fiscal year the requisition is made.


Summary
   The Army had not established effective controls and procedures to manage the
   MPA appropriation. As of January 31, 2006, the cash balance in the FY 2005

                                       10
    MPA appropriation totaled about $185.4 million. Army Budget and DFAS-IN
    improperly recorded $617.1 million of obligations and disbursements in the
    FYs 2004 and 2006 MPA appropriations rather than the FY 2005 MPA
    appropriation. Correction of accounting transactions may result in a potential
    Antideficiency Act violation reportable under DoD Directive 7200.1 and the DoD
    FMR, volume 14. Although the Assistant Secretary of the Army (Financial
    Management and Comptroller) has approved a plan that addresses many
    recognized weaknesses and strengthens management controls over the MPA
    appropriation, Army Budget, Army G-1, and DFAS-IN need to take additional
    corrective actions to improve processes and controls to manage the MPA
    appropriation.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Director, Army Budget, in coordination with
    the Deputy Chief of Staff for Personnel:

           a. Develop a formal process to use the Program Budget Accounting
    System - Funds Distribution for creating and issuing funding authorization
    targets to program managers responsible for obligating and expending
    Military Personnel, Army appropriation funds.

    Management Comments. The Assistant Secretary of the Army (Financial
    Management and Comptroller) concurred and stated that Army Budget was
    working with Army G-1 to evaluate the issuance of formal funding targets
    through the Program Budget Accounting System. They anticipate that any
    changes will occur during FY 2007 or the start of FY 2008.

           b. Include non-payroll costs in the costing model for estimating
    obligations, thoroughly document the costing model methodology, and retain
    documentation to support the monthly and year-end estimated obligations
    recorded in the Accounting Report M-1002.

    Management Comments. The Assistant Secretary of the Army (Financial
    Management and Comptroller) concurred and stated that the cost model under
    development will be used to estimate most non-payroll costs in FY 2007.

    Audit Response. Management comments are partially responsive. The Assistant
    Secretary did not indicate whether the Army will thoroughly document the
    costing model methodology and retain documentation to support the monthly and
    year-end estimated obligations. We request that the Assistant Secretary provide
    comments on the final report.

           c. Implement, as a part of the monthly budget execution reviews of
    the Military Personnel, Army appropriation, procedures to thoroughly
    document the data analysis performed, recommendations made to align
    requirements with available resources, and decisions made by Army
    leadership.


                                      11
Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred and stated that the budget execution
reviews will be documented.

       d. Prepare Standard Form 1081 accounting adjustments to transfer
Military Personnel, Army appropriation obligations and disbursements to
the correct fiscal year. Specifically, prepare accounting adjustments to
move:

               (1) $312.8 million of subsistence interfund bills from FY 2004
to FY 2005.

               (2) $113.9 million of subsistence interfund bills from FY 2006
to FY 2005.

              (3) $190.3 million of Medicare Eligible Retiree Health Care
Fund costs from FY 2004 to FY 2005.

Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) nonconcurred and stated that further review of the
interfund bills and Medicare Eligible Retiree Health Care Fund costs was
necessary before making the accounting adjustments. Regarding the
$312.8 million of subsistence interfund bills, the Assistant Secretary stated that
prior reconciliations of the FY 2005 Military Personnel, Army appropriation were
limited in scope and focused primarily on high-dollar transactions. The U.S.
Army Audit Agency is performing a complete reconciliation of interfund bills
processed during the six fiscal quarters covering the fourth quarter FY 2004
through the first quarter FY 2006. The preliminary report is due in
November 2006, and the final report is due in January 2007. The Assistant
Secretary nonconcurred with the recommendation to move $113.9 million of
subsistence interfund bills from FY 2006 to FY 2005 and stated that it is standard
DoD business practice to obligate current year funds when a disbursement is
received with no corresponding obligation. The Assistant Secretary stated that
the recommendation to transfer $190.3 million of Medicare Eligible Retiree
Health Care costs from FY 2004 to FY 2005 does not consider the impact of over
and under payments. U.S. Army Audit Agency is also reviewing payments made
to the Medicare Eligible Retiree Health Care Fund. Army Budget officials will
process the necessary accounting adjustments upon completion of the U.S. Army
Audit Agency reviews.
Audit Response. Management comments are partially responsive. The DoD
FMR, volume 14, chapter 3, requires that within 10 business days of receipt of a
DoD Inspector General draft report alleging a potential Antideficiency Act
violation, the Assistant Secretary of the Army (Financial Management and
Comptroller) will request a preliminary review of the potential violation. If the
review determines that a potential violation occurred, the Assistant Secretary will
initiate a formal investigation within 15 business days and report the potential
violation to the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer. We believe that the reviews of the $312.8 million of
subsistence interfund bills and the $190.3 million of Medicare Eligible Retiree
Health Care Fund costs by the U.S. Army Audit Agency meet the DoD FMR

                                    12
requirement to conduct a preliminary review of an audit-identified potential
Antideficiency Act violation.

         We do not agree with the Assistant Secretary’s rationale for recording the
$113.9 million of subsistence interfund bills in FY 2006 rather than FY 2005.
Although the standard business practice was to obligate current year funds when
DFAS-IN received a disbursement for which a corresponding obligation had not
been recorded in the accounting system, the practice was contrary to the DoD
FMR, volume 3, chapter 8, which requires the buyer placing an order for a
stock-funded item to record the obligation when placing the order. In addition,
DFAS-IN Regulation 37-1, “Finance and Accounting Policy and
Implementation,” requires that when an obligation is incurred in a prior fiscal
year, but not recorded in the prior year, the fund holder will use prior year funds
to record the obligation. On December 19, 2005, the Assistant Secretary
approved a plan to strengthen controls over the MPA appropriation. The plan
included changing processes to obligate supply requisitions upon acceptance by
the source of supply. In addition, the Assistant Secretary and the Director,
DFAS-IN Operations concurred with Recommendations A.1.f. and A.2. to modify
systems to record obligations at the time of requisition. DFAS-IN improperly
recorded the $113.9 million of interfund bills in FY 2006 rather than FY 2005 by
following practices that comply with DoD policy. As a result, Army Budget
should process an accounting adjustment to transfer obligations and
disbursements to the correct fiscal year. The impact of this adjustment on the
potential Antideficiency Act violation should be evaluated as a part of the U.S.
Army Audit Agency reconciliation of interfund bills processed during the six
fiscal quarters covering the fourth quarter FY 2004 through the first quarter FY
2006. We request that the Assistant Secretary reconsider her position and provide
comments in response to the final report.

        e. Report a potential Antideficiency Act violation in the FY 2005
Military Personnel, Army appropriation as prescribed in DoD Financial
Management Regulation, volume 14.

Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) nonconcurred pending completion of U.S. Army
Audit Agency’s reconciliation of subsistence interfund bills processed during the
six fiscal quarters covering the fourth quarter FY 2004 through the first quarter
FY 2006. The Assistant Secretary stated that the Army will report an
Antideficiency Act violation, if required, upon completion of the reconciliation
and processing of the necessary accounting adjustments.

Audit Response. Management comments are responsive. The reviews of
subsistence interfund bills and Medicare Care Health Care Fund costs by U.S.
Army Audit Agency meet the DoD FMR requirement to conduct a preliminary
review of an audit-identified potential Antideficiency Act violation. Based on the
results of U.S. Army Audit Agency’s review, the Army should report an
Antideficiency Act violation, if required.

       f. Coordinate with the Office of the Deputy Chief of Staff, G-4
(Logistics) to modify the Army Food Management Information System to
create an obligation document at the time the supply requisition is prepared.


                                    13
Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred and stated that the Army was working
with the Army G-4, DFAS, and other interested parties to modify existing
systems to enable the obligation of funds at the time subsistence requisitions are
accepted by the source of supply. The Army anticipates that the system change to
the Army Food Management Information System will be in place and working by
October 2006 and worldwide fielding will occur throughout FY 2007.

A.2. We recommend that the Director, Defense Finance and Accounting
Service Indianapolis Operations implement system changes to the
Operational Data Store to receive and post obligation transactions from the
Army Food Management Information System to the accounting records.

Management Comments. The Director, DFAS-IN Operations concurred and
stated that DFAS was working with Army G-4 and the Army Food Management
Information System contractors on system changes that will create obligations at
the point of requisition. The Director stated that he does not expect complete
implementation before September 30, 2007.




                                    14
            B. Accounting and Financial Reporting
               for the Military Personnel,
               Army Appropriation
            Army Budget and DFAS-IN lacked effective internal controls to ensure
            proper accountability over and reporting for the MPA appropriation.
            Specifically, the Military Pay Division within Army Budget and the
            Military Pay Accounting Division at DFAS-IN did not:

                    •   adequately document, support, and review accounting
                        adjustments;

                    •   establish a formal process to identify and track the number,
                        type, and dollar amounts of the obligation transactions and
                        adjustments Army Budget submitted to DFAS-IN for
                        recording;
                    •   conduct thorough tri-annual reviews of recorded obligations;
                        and

                    •   implement an effective internal control program over the MPA
                        appropriation.

            These deficiencies occurred because Army Budget and DFAS-IN did not
            adhere to DoD FMR requirements and have in place local procedures to
            document and support accounting adjustments, control obligation
            transactions, and conduct thorough periodic reviews of recorded
            obligations. As a result, Army Budget officials could not rely on the
            accuracy and completeness of the accounting data they used to manage the
            MPA appropriation.


Criteria
     Accounting Adjustments. The DoD FMR, volume 6A, chapter 2, “Financial
     Reports, Roles, and Responsibilities,” discusses the requirements for accounting
     adjustments. DFAS and DFAS customers are required to support accounting
     adjustments by written documentation sufficiently detailed to provide an audit
     trail to source transactions that require the adjustments. This documentation is to
     contain the rationale and justification for the adjustment, detailed numbers and
     dollar amounts of errors or conditions that relate to the transactions or records that
     are proposed for adjustment, date of the adjustment, and name and position of the
     individual approving the adjustment.
     DFAS-IN Regulation 37-1, “Finance and Accounting Policy Implementation,”
     requires the fund holder or accounting office detecting an error in a reported
     disbursement to prepare an accounting adjustment. The regulation requires that
     the fund holder or accounting office use a Standard Form 1081 to correct errors


                                          15
    related to the reported department, fiscal year, basic symbol, fund limit, fiscal
    station, or dollar amount. The accounting office is responsible for reviewing,
    certifying, and processing all Standard Forms 1081 submitted by the fund holder.
    In addition, the DoD FMR and DFAS-IN Regulation 37-1 require DFAS
    customers to maintain controls that include tools to identify and track the
    numbers, types, and dollar amounts of accounting transactions and adjustments
    submitted to DFAS.

    Joint Reviews. The DoD FMR volume 3, chapter 8, “Standards for Recording
    and Reviewing Commitments and Obligations,” requires that fund holders, with
    assistance from supporting accounting offices, review commitment and obligation
    transactions for timeliness, completeness, and accuracy during each of the
    4-month periods ending January 31, May 31, and September 30. The accounting
    offices are responsible for providing the fund holders with lists identifying the
    outstanding obligations. The lists provide a means of documenting the review, to
    include corrective actions taken and additional research required. The fund
    holder and accounting office are responsible for processing required adjustments
    and corrections within 10 workdays. The fund holder is responsible for signing a
    confirmation statement attesting to the accomplishment of the review and the
    accuracy and completeness of the recorded amounts. In addition, DFAS-IN
    Regulation 37-1 requires that the responsible accountants provide the fund holder
    with a report documenting the results of the review.


Documentation Supporting Accounting Adjustments
    Army Budget and DFAS-IN did not adequately document and support accounting
    adjustments as required by the DoD FMR and DFAS-IN Regulation 37-1. Three
    of the nine adjustments to the MPA appropriation, totaling about $900.3 million,
    that Army Budget and DFAS-IN processed from September through
    November 2005, did not use a Standard Form 1081. Of the six adjustments that
    used Standard Forms 1081, two did not have any additional supporting
    documentation explaining the adjustment.
    Military Pay Accounting Division personnel made an adjustment that moved
    $37.7 million of costs for bonus payments to soldiers from the FY 2005 MPA
    appropriation to the FY 2006 MPA appropriation. Accounting personnel stated
    that they made the adjustment to correct errors in the processing of transactions at
    year’s end. At our request, accounting personnel queried the Operational Data
    Store and identified the adjustment transaction and date processed. However,
    DFAS-IN neither prepared a Standard Form 1081 nor retained supporting
    documentation describing the justification for the adjustment, the transaction
    requiring correction, or the individual approving the adjustment.

    On September 20, 2005, Army Budget prepared a Standard Form 1081 reversing
    a prior adjustment and transferring charges of $312.8 million from the FY 2005
    MPA appropriation to the FY 2004 MPA appropriation. Army Budget officials
    did not provide DFAS-IN with documentation to support the adjustment. In
    addition, comments on the Standard Form 1081 indicated that additional research
    was required to ensure that the disbursements posted correctly. However,

                                         16
     accounting personnel processed the adjustment without supporting documentation
     or evidence that they reviewed and certified the adjustment. Army Budget
     officials could not provide us evidence to support the adjustment.

     Both Army Budget and DFAS-IN lacked local procedures for implementing DoD
     FMR and DFAS-IN Regulation 37-1 requirements for preparing, documenting,
     and processing voucher adjustments.


Controlling Transactions
     Army Budget and DFAS-IN did not have a formal process in place to identify,
     track, and control the number, types, and dollar amounts of transactions and
     adjustments submitted by Army Budget to DFAS-IN for entry into the accounting
     system. Army Budget used several methods to create and transmit obligation
     transactions and accounting adjustments to DFAS-IN, to include:

            •   Standard Form 1080 (Voucher for Transfer Between Appropriations
                and/or Funds),

            •   Standard Form 1081,

            •   monthly spreadsheets of forecasted obligations,

            •   facsimiles and e-mails, and

            •   telephone conversations and messages.

     DFAS-IN maintained a computer file to store an electronic copy of the standard
     forms, spreadsheets, and e-mails received from Army Budget. However, Army
     Budget did not maintain a documented record of all obligation transactions and
     adjustments sent to DFAS-IN for recording in the accounting system. In
     addition, DFAS-IN did not have a point of contact established to receive and
     control transactions sent by Army Budget or written procedures for tracking and
     maintaining documentation of transactions received.

     The lack of a formal process to control obligation transactions limited Army
     Budget’s ability to validate the accuracy and completeness of obligations
     reflected in financial reports. To illustrate, the monthly spreadsheet of forecasted
     obligations did not reconcile to the amounts recorded in the accounting records.
     DFAS-IN personnel stated that they frequently adjusted forecasted obligations
     based on e-mails and telephone messages from Army Budget. The absence of a
     formal process for tracking and controlling obligation transactions compromised
     the reliability of the financial data and contributed to an environment where
     Army Budget managers questioned the reported status of the MPA appropriation.
     In addition, the lack of a formal control process hindered management’s ability to
     assign responsibility and accountability for the recorded financial data. Army
     Budget and DFAS need to establish a formal process for identifying, tracking,
     and controlling the number, types, and dollar amounts of transactions for entry
     into the accounting system.


                                         17
Obligation Reviews
    Army Budget and DFAS-IN did not perform thorough reviews of recorded
    obligations and disbursements in accordance with the DoD FMR. During
    FY 2005, Army Budget and DFAS-IN performed two of the three required
    reviews, one in January and the other in July 2005. The review performed in
    July 2005 included only FY 2005 recorded transactions and did not include any
    prior year transactions. In addition, since Army Budget and DFAS-IN completed
    the review more than 2 months prior to fiscal year’s end, the review did not
    include validation of the estimated obligations made for FY 2005 year’s end.
    Personnel responsible for the review annotated control spreadsheets indicating
    transactions requiring correction, adjustment, or additional research. However,
    managers did not continue to monitor the process to ensure completion of the
    required actions. We compared transactions annotated on the July 2005
    spreadsheets as requiring corrective action or further research to the
    documentation supporting the January 2006 review. The majority of the
    transactions appeared again on spreadsheets for the January 2006 review.
    Military Pay Accounting Division officials explained that they lacked adequate
    staffing to review and research all transactions and complete required corrections.

    The Plan of Milestone Actions developed by Army and DFAS-IN officials
    recognized the need to improve the process for conducting tri-annual reviews.
    During January 2006, Army Budget personnel visited DFAS-IN to conduct a joint
    review of MPA appropriation obligations. The review covered FY 2006 and prior
    fiscal years. In early March 2006, DFAS-IN personnel certified that they had
    completed the review and validation of obligations, and the designated Army
    Budget official signed a confirmation statement attesting to performance of the
    review in accordance with the DoD FMR guidance. Although Army Budget and
    DFAS-IN personnel conducted a more detailed review than the one in July 2005,
    they did not complete the review of travel and advance pay obligations and
    disbursements. Military Pay Accounting Division personnel attributed this to
    continued insufficient staffing. In addition, personnel did not annotate the
    spreadsheets to show the corrective actions taken and the dates they completed
    the actions.

    A thorough and better documented review of obligations and disbursements
    would improve the reliability and accuracy of data certified in financial reports
    and used to manage the MPA appropriation. Army Budget and DFAS-IN should
    perform the year-end review in conjunction with development of the final
    year-end obligation plan. Individuals performing the review should annotate the
    control spreadsheets to show actions taken and dates completed. Responsible
    supervisors should monitor the process to ensure that research and corrective
    actions are completed in a timely manner. Army Budget and DFAS-IN officials
    should also qualify their certification and confirmation statements as to any
    limitations on the completeness, accuracy, and timeliness of the review. In
    addition, DFAS-IN should dedicate adequate staff to thoroughly review recorded
    obligations and disbursements.




                                        18
Adequacy of Management’s Self-Evaluation
    Army Budget and DFAS-IN managers did not perform comprehensive
    self-evaluations of internal controls related to managing and accounting for the
    MPA appropriation. As a result, neither Army Budget nor DFAS-IN reported the
    internal control weaknesses we identified.

    The Military Pay Division of Army Budget conducted a self-evaluation of internal
    controls in support of the FY 2005 Annual Statement of Assurance for the
    Assistant Secretary of the Army (Financial Management and Comptroller). The
    self-evaluation relied primarily on a review of internal processing checklists. The
    self-evaluation did not identify the material internal control weaknesses discussed
    in this report related to fund distribution, estimating and recording obligations,
    accounting adjustments, control of transactions, and joint reviews of obligations.

    Military Pay Accounting Division assessable unit managers conducted
    self-evaluations using locally developed matrices to assess internal controls over
    the major functions performed by the division. However, managers did not
    identify voucher preparation and control of accounting transactions as a major
    function of their assessable units. Managers did identify tri-annual reviews of
    obligations as a major function and concluded that adequate internal controls
    were in place.

    In FY 2005, Army Budget and DFAS-IN should have recognized their failure to
    adhere to DoD policy for distributing funds, estimating and recording obligations,
    preparing and documenting accounting adjustments, controlling and tracking
    transactions, and conducting joint reviews of obligations. Army Budget and
    DFAS-IN should update their self-evaluations and coordinate to determine
    whether existing conditions meet the criteria for a material weakness. Army
    Budget and DFAS-IN should also consider progress in completing the Plan of
    Milestone Actions established to address recognized weaknesses and strengthen
    management controls over the MPA appropriation. If conditions meet the criteria,
    then Army Budget should report the material weaknesses to the next higher
    management level.


Summary
    Army Budget and DFAS-IN did not have effective processes in place to control
    obligation transactions, document and support accounting adjustments, and
    conduct periodic reviews of recorded obligations. The lack of effective internal
    controls contributed to an environment where Army managers questioned the
    reliability of the reported status of the MPA appropriation. Army Budget and
    DFAS-IN need to establish and strengthen controls regarding the preparation and
    documentation for adjustment vouchers, tracking documentation, reviewing
    obligations and disbursements, and performing self-evaluations of internal
    controls. DFAS-IN also needs to dedicate adequate staff to reviews of obligations
    and disbursements.



                                        19
Recommendations and Management Comments
    B.1. We recommend that the Director, Army Budget develop and implement
    procedures for preparing and maintaining documentation supporting
    accounting adjustments that detail the number and dollar amounts of errors
    or conditions requiring adjustment and describe the rationale and
    justification for the adjustment.

    Management Comments. The Assistant Secretary of the Army (Financial
    Management and Comptroller) concurred and stated that in FY 2007 the Army
    will institute a process to prepare and maintain documentation supporting
    accounting adjustments that detail the number and dollar amounts of errors or
    conditions requiring adjustment and describe the rationale and justification for the
    adjustment.

     B.2. We recommend that the Director, Army Budget, in coordination with
    the Director, Defense Finance and Accounting Service Indianapolis
    Operations:

           a. Implement a formal process to identify, track, and control the
    number, types, and dollar amounts of transactions submitted for entry into
    the accounting system.

    Management Comments. The Assistant Secretary of the Army (Financial
    Management and Comptroller) concurred and stated that in FY 2007 the Army
    will institute a formal process to identify, track, and control the number, types,
    and dollar amounts of transactions submitted for entry into the accounting system.
    The Director, DFAS-IN Operations also concurred and stated that they are
    working with the Army to use sequential transmittal numbers to submit Military
    Pay accounting transactions.

           b. Implement procedures for conducting tri-annual reviews of
    Military Personnel, Army appropriation obligations to ensure that:
                 (1) All reviews are scheduled and completed within the
    required timeframes.

                 (2) The year-end review is performed in conjunction with
    development of the year-end obligation plan.

                  (3) Individuals responsible for performing the review annotate
    the control spreadsheets to show actions taken and dates completed.

                 (4) Supervisors monitor control spreadsheets to ensure that
    research and corrections are made timely.

                   (5) Officials qualify their certification and confirmation
    statements as to any limitations on the completeness, accuracy, and
    timeliness of the review.


                                         20
Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred and stated that the Army will conduct
joint reviews in accordance with the DoD FMR, volume 3, chapter 8. The
Director, DFAS-IN Operations also concurred and stated that DFAS will
coordinate with Army Budget to schedule and complete joint reviews within
required timeframes and ensure that the year-end review is performed in
conjunction with the year-end obligation plan. The Director further stated that
supervisors would monitor annotated control spreadsheets to ensure that
accounting personnel research and make corrections timely, and officials would
qualify their certification statements as to any limitations on the completeness and
accuracy of the review.

        c. Update the self-evaluations of the Army Budget Office’s Military
Pay Division and Defense Finance and Accounting Service’s Military Pay
Accounting Division to reflect the conditions discussed in this report and to
describe the progress in completing the Plan of Action Milestones.
Determine whether the conditions meet the criteria for a material weakness
as stated in DoD Instruction 5010.40, “Managers, Internal Control (MIC)
Program Procedures,” January 4, 2006. Army Budget should coordinate
with the Defense Finance and Accounting Service Indianapolis to report the
material weakness to the next higher level of management.

Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred and stated that the Chief, Military Pay
Division elevated these issues to the next higher level of management as input to
the FY 2006 Annual Statement of Assurance. The Assistant Secretary further
stated that the Army is aware of these internal control issues and is working to
improve financial operations. The Director, DFAS-IN Operations also concurred
and stated that DFAS will work with the Army to continue efforts to improve
financial management. The Director further stated that DFAS has identified the
MPA account maintenance as a reportable condition on the Annual Statement of
Assurance.

B.3. We recommend that the Director, Defense Finance and Accounting
Service Indianapolis Operations:
      a. Develop and implement procedures for preparing and maintaining
documentation in support of Military Personnel, Army appropriation
accounting adjustments.

Management Comments. The Director, DFAS-IN Operations concurred and
stated that DFAS will maintain a transmittal log along with supporting
documentation by accounting month.

       b. Dedicate adequate staffing to ensure that the Military Pay
Accounting Division completes thorough reviews of recorded obligations and
disbursements.

Management Comments. The Director, DFAS Operations concurred and stated
that DFAS has identified work-year shortfalls and is working on filling positions.



                                     21
Appendix A. Scope and Methodology
   We reviewed processes and controls for managing and accounting for the MPA
   appropriation. We interviewed Army Budget and Army G-1 personnel to
   determine procedures for managing budget execution and distributing MPA funds
   to program managers. We examined the Army Budget monthly budget execution
   plans and compared forecasted requirements to actual obligations and
   disbursements. We obtained copies of month-end and fiscal year-end obligation
   plans and compared them to actual amounts recorded in the Accounting Report
   M-1002.

   We reviewed the nine accounting adjustments made by Army Budget and
   DFAS-IN during the fourth quarter FY 2005 and first quarter FY 2006. We
   analyzed supporting documentation and rationale for the adjustments and
   evaluated this information for compliance with DoD FMR policy for recording
   obligations. We requested and analyzed data queries from DFAS-IN from the
   Operational Data Store and the Standard Finance System to verify transactions
   supporting the adjustments. We also reviewed DFAS-IN’s research of the
   Medicare Eligible Retiree Health Care Fund payments. We requested that the
   Office of Inspector General Legal Counsel review several of the accounting
   adjustments made by Army Budget and DFAS-IN for compliance with United
   States Code and DoD Directive 7200.1. We reviewed and evaluated the Plan of
   Milestone Actions the Army and DFAS-IN developed to improve MPA
   appropriation processes and controls.

   We interviewed Army Budget and DFAS-IN personnel to determine the
   procedures used to identify, track, and control transactions submitted by Army
   Budget to DFAS-IN for entry into the accounting system. We evaluated
   procedures for preparing, documenting, and approving journal voucher
   adjustments. We also examined the joint reviews of obligations made by Army
   Budget and DFAS-IN in July 2005 and January 2006 to determine the
   completeness of the reviews and corrective actions taken.

   We performed this audit from August 2005 through May 2006 in accordance with
   generally accepted government auditing standards.
   Use of Computer-Processed Data. We used accounting data and reports
   generated by payroll and accounting systems within DFAS-IN and DFAS field
   accounting sites to perform this audit. Systems used to process and account for
   MPA appropriation financial data include the Defense Joint Military Pay System,
   Standard Finance System, Operational Data Store, and Headquarters Accounting
   and Reporting System. The Department of Defense Inspector General (DoD IG)
   has reported, and DoD has acknowledged, deficiencies in the adequacy of general
   and application controls in at least two of these systems. DoD IG
   Report No. D-2005-059, “Report on Standard Finance System Control Placed in
   Operation and Tests of Operating Effectiveness for the Period October 1, 2004
   through March 31, 2005,” April 30, 2005, identified numerous system and
   application control deficiencies. DoD IG Report No. D-2001-052, “Controls
   Over the Defense Joint Military Pay System,” February 15, 2001, reported that
   there
                                      22
were also significant system and application control deficiencies with the pay
system. Because of the acknowledged unreliability of DoD financial management
systems, we did not perform additional tests regarding data reliability.

The lack of adequate Army Budget and DFAS-IN controls over the MPA
appropriation data used to prepare the Accounting Report M-1002 also casts
doubts over the reliability of computer-processed data. For the large-dollar
accounting adjustments reviewed, we reconciled adjustment totals to source
documentation. Testing of the adjustments, when reviewed in context of other
available evidence, provided reasonable assurance that the data were sufficiently
reliable to support audit opinions, conclusions, and recommendations. However,
because it was not feasible to examine all reported obligations and adjustments
and significant data reliability problems existed, we were not able to determine
the extent that total obligations and disbursements exceeded FY 2005 MPA
appropriated funds.

Government Accountability Office (GAO) High-Risk Area. GAO has
identified several high-risk areas in DoD. This report provides coverage of the
financial management high-risk area.




                                    23
Appendix B. Prior Coverage
    During the last 5 years, GAO, DoD IG, and the U.S. Army Audit Agency
    (USAAA) have issued nine reports discussing military personnel costs.
    Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports. USAAA reports are restricted to military
    domains and GAO. They can be accessed at
    https://www.aaa.army.mil/reports.htm.


GAO
    GAO Report No. 05-882, “Global War on Terrorism: DoD Needs to Improve the
    Reliability of Cost Data and Provide Additional Guidance to Control Costs,”
    September 21, 2005

    GAO Report No. 05-87R, “Military Personnel: DoD Needs to Strengthen the
    Annual Review and Certification of Military Personnel Obligations,”
    November 29, 2004

    GAO Report No. 04-915, “Military Operations: Fiscal Year 2004 Costs for the
    Global War on Terrorism Will Exceed Supplemental, Requiring DoD to Shift
    Funds from Other Uses,” July 21, 2004

    GAO Report No. 04-668, “Military Operations: DoD’s Fiscal Year 2003 Funding
    and Reported Obligations in Support of the Global War on Terrorism,”
    May 13, 2004


DoD IG
    DoD IG Report No. D-2005-059, “Report on Standard Finance System Controls
    Placed in Operation and Tests of Operating Effectiveness for the Period
    October 1, 2004 through March 31, 2005,” April 30, 2005


USAAA
    USAAA Report No. A-2005-0167-FFF, “Followup Audit of Mobilization and
    Pay Record Discrepancies in the Reserve Component,” May 6, 2005




                                       24
USAAA Report No. A-2003-0324-FFF, “Mobilization and Pay Record
Discrepancies in the Reserve Component,” June 30, 2003

USAAA Report No. A-2002-0452-FFG, “Military Pay and Benefits: The Army’s
Contribution to the Military Retirement Trust Fund,” August 14, 2002

USAAA Report No. A-2002-0427-FFG, “Soldier Out-of-Service Debt
Avoidance, Fort Leonard Wood Site,” July 3, 2002




                               25
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          26
Department of the Army Comments




                    27
28
29
30
Defense Finance and Accounting Service
Indianapolis Comments




                      31
32
33
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Carmelo G. Ventimiglia
Robert J. Ringwald
Audrey M. Spear
Rebecca L. Niemeier
Karen A. Preston
Matthew F. Bengs
Melissa J. Humerickhouse
Lynn M. Irwin
